12/10 G-12992

AGREEMENT AND DISCLOSURE STATEMENT
Business MasterCard®

ATIRACREDIT BUSINESS MASTERCARD
AGREEMENT AND DISCLOSURE STATEMENT

In this Agreement, please remember that “we,” “our,” and “us”
mean TMG Financial Services, the issuer of this account; and
“you” and “your” mean the Member.
This Agreement sets out your responsibilities and obligations,
those of each Cardmember and Guarantor, and our
responsibilities and obligations with respect to the Cards, the
Accounts and all Debt charged to each Account.

ACCEPTANCE OF AGREEMENT

Any one or more of the following acts or actions shall signify that
you have read and understand, and that each Cardmember and
Guarantor has read and understands the terms and conditions
of this Agreement, and shall constitute your agreement, as well
as the agreement of each Cardmember and each Guarantor, to
be fully bound by the terms and conditions of this Agreement: (i)
the acceptance by you or any Cardmember of a Card; (ii) the use
of any Card or Account by you or any Cardmember; or (iii) the
accessing of any Card or Account by you or any Cardmember.

NOTICE TO CARDMEMBERS

Each Cardmember shall be individually liable for the payment
of, and shall pay on our demand all Debt which may be owing
from time to time from or on account of any and all use by a
Cardmember, or anyone who has actual, implied or apparent
authority, of any usage which is not authorized under this
Agreement (i.e., a use not primarily for or incidental to your
business). The liability of the Cardmember shall be in addition to
and not in lieu of your liability and the liability of each Guarantor,
which liability shall continue for any and all uses as provided in
this Agreement.

TERMS AND CONDITIONS

1. What the Words Mean.
In this Agreement, please remember that:

“Account” means the ATIRAcredit Business MasterCard account
we have opened in a Cardmember’s name to which Debt is or
will be charged;

“Agreement” means this ATIRAcredit Business MasterCard
Agreement and Disclosure Statement, together with (i) your
application given to us when you applied for the Cards, Accounts,
your welcome letter, and this ATIRAcredit Business MasterCard
Agreement and Disclosure Statement, and (ii) all supplements,
addenda, amendments, modifications, changes, renewals,
extensions, substitutions, and replacements to this ATIRAcredit
Business MasterCard Agreement and Disclosure Statement;
“Application” shall have the meaning given to such term in
Section 34 below and the Application shall be and the same is
one of our “records” as such term is used in the definition of
“Member” and the definition of “Guarantor”;
“Authorized Person” means any Person you have designated
as being authorized to ask us to open an Account and issue a
Card to a Cardmember under this Agreement and to perform
administrative duties for you under this Agreement;
“Balance Transfers” means the transfer of outstanding balances
by a Cardmember to the Cardmember’s Account from credit
accounts issued by Persons other than us or any of our affiliates;
“Card” means any MasterCard Business credit card we issue to
a Cardmember on an Account in the Cardmember’s name at the
request of an Authorized Person under this Agreement, and all
renewals of and replacements for that credit card;
“Cardmember” means an individual for whom we have opened
an Account and to whom we have issued a Card on that Account
at the request of an Authorized Person under this Agreement;
“Cash Advance” means an advance of cash that is charged
to a Cardmember’s Account with or in connection with the
Cardmember’s Card (or any other eligible Account access
card we have issued to the Cardmember), including, without
limitation, cash-like transactions, which are transactions similar
to cash, e.g., money orders, wire transfers, travelers’ cheques,
Convenience Checks and gaming transactions (including betting,
off-track betting, race track wagers, casino gaming chips, and
lottery tickets);

“Account Statement” means our written statement of the
Account that we prepare for a Cardmember about every three
(3) or four (4) weeks;

“Consolidated Pay Account” means an account where one
monthly statement is provided to the guarantor listing the
transactions made and payments due for all authorized users on
the account;

“Aggregate Credit Limit” means the maximum aggregate
amount of Debt that can remain outstanding and unpaid at any
time in the Accounts of all Cardmembers under this Agreement;

“Convenience Checks” means drafts that look like other checks,
but are drawn on credit available in a Cardmember’s Account;

“Credit Limit” means the maximum amount of Debt that can
remain outstanding and unpaid at any time in a Cardmember’s
Account under this Agreement;
“Debt” means all amounts charged to a Cardmember’s Account
from time to time and at any time with or in connection with
the Cardmember’s Card, including Purchases, Cash Advances,
Balance Transfers, Convenience Checks, Finance Charges , annual
fees, transaction fees, late fees, attorneys’ fees, and other fees
or charges;
“Due Date” means the date indicated as such on an Account
Statement;
“Guarantor” means the Person, if any, identified in our records
as the Person who has guaranteed payment of all Debt charged
to each Account, or whom we consider as being the Person who
has guaranteed such payment, and with respect to our records
regarding the identity of such Person or our understanding
regarding such identity, our records or understanding shall
be conclusive; and if there is more than one Person who has
guaranteed payment of all Debt, such Persons shall be jointly
and severally liable to us for all Debt.
“Individual Pay Account” means an account where each
Cardmember on the account receives a monthly statement
listing only that Cardmember’s transactions made and
payment due;
“Member” means the Person identified in our records as the
Person who is primarily liable for the payment of all Debt
charged to each Account, or whom we consider as being the
Person primarily liable, and with respect to our records regarding
the identity of such Person or our understanding regarding
such identity, our records or understanding shall be conclusive;
and if there is more than one Person who is primarily liable for
the payment of all Debt charged to each Account, or whom we
consider as being the Person primarily liable, such Persons shall
be jointly and severally liable to us for all Debt.
“Minimum Payment” means the amount indicated as such on an
Account Statement, which will be the greater of $40 or 2% of the
total outstanding balance, unless the New Balance is less than
$40 in which case the Minimum Payment will be the amount of
the New Balance;
“New Balance” means the amount indicated as such on an
Account Statement;
“Periodic Rate” means the percentage of Finance Charge that is
applied to the average daily balance of Cash Advances, Balance
Transfers, and Purchases for a period. A “monthly” Periodic
Rate is used in this Agreement. The monthly Periodic Rate will
be equal to 1/12th of its corresponding ANNUAL PERCENTAGE
RATE and the monthly Periodic Rate will vary when the ANNUAL
PERCENTAGE RATE varies.
“Person” means firms, companies, associations, general
partnerships, limited partnerships, limited liability partnerships,
limited liability limited partnerships, limited liability companies,

trusts, business trusts, corporations, not-for-profit organizations,
municipality entities and other organizations, including
public and quasi-public bodies, as well as individuals (i.e.,
natural persons);
“Personal Identification Number” means the personal
identification number that a Cardmember has selected in our
prescribed manner;
“Purchase” means a purchase of goods or services (or both) that
is charged to a Cardmember’s Account with or in connection
with the Cardmember’s Card;
“Statement Date” means the date indicated as such on an
Account Statement; and
“Unauthorized Use” means the use of a Card or a Convenience
Check by a Person, other than a Cardmember, who does not
have actual, implied, or apparent authority for such use, and
from which neither you nor a Cardmember receives any benefit.
Unauthorized Use does not include or mean the use of a Card by
you or any Person who has an ownership interest in you, or by a
Cardmember or a Person authorized by a Cardmember, or by any
other Person with an interest in or authority to transact business
on the Account. Unauthorized Use also does not include or mean
the use of a Card by a Cardmember for a purpose which is not
primarily for or incidental to your business.
2. General Terms of Agreement.
This Agreement applies to each Account and Card. This
Agreement replaces all prior Business MasterCard agreements, if
any, between you and us for each Account and Card.
You must promptly give us up-to-date credit and financiallyrelated information about you and about each Guarantor, if any,
when we ask for it, as well as any other information we may
request regarding your business and its operations.
You have the power and authority to perform and take all actions
contemplated by this Agreement, and this Agreement is a valid,
binding, and enforceable agreement against you in accordance
with its terms. You will provide us upon request such documents
or other information as we may deem necessary to verify your
power and authority.
The section headings in this Agreement appear only for ease of
reference purposes. They shall not control or affect the meaning
or construction of any of the provisions of this Agreement.
Words in the masculine gender mean and include correlative
words of the feminine and neuter genders and words importing
the singular numbered meaning include the plural number, and
vice versa.
This Agreement is governed by the laws of the State of Iowa,
without regard to its conflicts of law provisions. To the extent
that the terms of this Agreement conflict with applicable state
or federal law, such state or federal law shall replace such
conflicting terms only to the extent required by law. Unless
expressly stated otherwise, all other terms of this Agreement
shall remain in full force and effect.

3. Authorized Person. One or more individuals will be designated
by you from time to time as an Authorized Person to assist
you in the administration of this Agreement. The Authorized
Person will be responsible for performing, on your behalf, such
administrative duties as we may request and you have agreed to
from time to time.
4. Account Opening/Card Issuance and Renewal. We will
open an Account for, and will issue a Card on that Account to,
a Cardmember at the request of an Authorized Person made
on a fully completed request form that we have prescribed for
this purpose.
Subject to our rights under the terms of this Agreement to
cancel, revoke, or suspend a Cardmember’s Account and
Card, we will issue renewal and replacement Cards to each
Cardmember before the expiration date indicated on the Card
last issued to each of them. We will continue to issue renewal
and replacement Cards to each Cardmember in this way until
you tell us to stop; the Cardmember tells us to stop; we cancel,
revoke, or suspend the Cardmember’s Account or Card; or this
Agreement is terminated. An emergency replacement Card will
be issued by us to a Cardmember when required according to
our customary operating procedures.
5. Account and Card Use. The use of each Account and Card
is governed by this Agreement. A Cardmember may use the
Cardmember’s Account and Card primarily for or incidental
to your business to obtain advances of money from us
through Purchase transactions, Cash Advance transactions,
Balance Transfer transactions, Convenience Checks and other
transactions we permit from time to time. An Account and Card
may only be used by the Cardmember in whose name it has
been opened or issued. A Card may not be used for any unlawful
purpose. A Card may not be used in any country that is subject
to economic sanctions imposed by the U.S. government, and
any attempted use of a Card in such countries will be blocked.
A Card may not be used in connection with online gambling or
to fund any account that is set up to facilitate online gambling.
A Cardmember must not use the Cardmember’s Card after the
expiration date shown on it, or after the cancellation, revocation,
or suspension of the Cardmember’s Account or Card or the
termination of this Agreement. It is your responsibility to inform
each Cardmember of the appropriate use of the Cardmember’s
Card, and the use of a Card by a Cardmember in a manner which
is not permitted under this Agreement shall not affect or limit
your liability to us for all Debt charged to each Account.
6. Foreign Transactions. Outside the 50 states of the United
States, a Cardmember may use a Card for Purchases from
merchants or to receive a Cash Advance (other than a
Convenience Check) in either a foreign currency or in U.S.
dollars. MasterCard International will convert to U.S. dollars any
charge or credit made to a Cardmember’s Account in currency
other than U.S. dollars. The conversion will be pursuant to
applicable MasterCard regulations in effect from time to time.
Currently, the exchange rate between the transaction currency
and the billing currency used for processing international
transactions is (i) a rate selected by MasterCard from the
range of rates available in wholesale currency markets for the

applicable central processing date, which may vary from the rate
MasterCard itself receives, or (ii) the government-mandated rate
in effect for the applicable central processing date. In addition to
the exchange rate, we will charge a processing fee of 1% of the
transaction amount after its conversion into U.S. Dollars of each
out of country Purchase or Cash Advance, regardless of whether
the Purchase or Cash Advance is made in a foreign currency or
U.S. dollars. We will post to the Cardmember’s Account the total
amount of the transaction in U.S. dollars. The exchange rate may
differ from the rate in effect on the date of the transaction.
7. Automated Banking Machines. We may from time to time
permit Cardmembers to use Cards at automated banking
machines and terminals (“ATM”). If such use is permitted, each
Cardmember will be issued a Personal Identification Number
(“PIN”) to use with the Cardmember’s Card to make transactions
on the Cardmember’s Account at those ATMs, subject to the
Cardmember’s agreement with us governing the use of the
Cardmember’s PIN at ATMs. There is no charge for issuing a PIN
for use with an account when it is sent via standard postage.
8. Debt Incurred Without a Card or Through Convenience
Checks.
(a) If a Cardmember incurs Debt without having presented the
Cardmember’s Card to a merchant (such as for mail order,
internet, or telephone Purchase), the legal effect will be the
same as if the Cardmember had used the Cardmember’s
Card and signed a Purchase or Cash Advance draft.
(b) From time to time, we may supply Convenience Checks
for use by Cardmembers. We may, based on the particular
offers we make from time to time, provide Convenience
Checks that will post and be treated as a Cash Advance.
Convenience Checks must be written in U.S. dollars and may
only be used by Cardmembers in accordance with the terms
of this Agreement.
We may return a Convenience Check used by a Cardmember
unpaid if: (i) the credit available under the Cardmember’s
Credit Limit is less than the Convenience Check amount; (ii) the
Cardmember’s Account is in default or the Cardmember’s Card
use or Account has been cancelled, revoked, or suspended; (iii)
the Convenience Check is improperly signed, has expired, or
otherwise fails to conform to our regularly accepted standards
for check payment; or (iv) this Agreement has been terminated.
The ability to process a stop payment request for a Convenience
Check will depend on whether a check has cleared. After a
Convenience Check has been processed, an opportunity to act on
a stop payment request may no longer exist. If you desire to stop
any payment, you must contact us by writing us at P.O. Box 14542,
Des Moines, IA 50306-3542 or by calling the Cardmember Service
telephone number listed on the Account Statement. Although
every reasonable effort will be taken to accommodate your
request, we will not have any liability for failing to do so. You may
be required to present your stop payment request in writing to us
within fourteen (14) days of you notifying us by telephone.
Convenience Checks, Balance Transfer checks, and other
promotional programs may not be used to pay any of the Debt

or any obligation either you or a Cardmember owes us or our
affiliates. We reserve the right to decline any standard Annual
Percentage Rate Balance Transfer transactions (including
Balance Transfer checks) on your account. We will not have
any responsibility or liability to you or any other Person if a
Convenience Check is not honored or accepted by a merchant
or any other Person. If we fail to properly or timely process a
Convenience Check, or we improperly return a Convenience
Check, we will ensure that the designated payee receives the
amount of the Convenience Check and that such charge is added
to your account balance, but will in no way be liable to you for
any consequential, incidental or exemplary damages caused by
the failure to properly or timely process the Convenience Check,
or our improper return of the Convenience Check.
9. Limits. We will set an Aggregate Credit Limit for all Accounts,
and we may change it from time to time by providing written
notice of the change to you. We will tell you what the initial
Aggregate Credit Limit is in writing in the welcome letter or
before the time an Account is opened for a Cardmember under
this Agreement. A portion of your Aggregate Credit Limit, called
the cash advance limit, is available for Cash Advances. We
disclose your cash advance limit in the welcome letter. You will
not permit the Debt you owe to us at any time to exceed the
Aggregate Credit Limit. However, we may (but are not required
to, even if we have done so before) permit that Debt to exceed
the Aggregate Credit Limit we set from time to time.
We will set a Credit Limit for each Cardmember’s Account, and
we may change the Credit Limit for a Cardmember’s Account
periodically. You will ensure that each Cardmember observes
the Cardmember’s Credit Limit. You will not permit the Debt
you owe to us in respect to an Account at any time to exceed
the Credit Limit for that Account. However, we may (but are not
required to, even if we have done so before) permit that Debt to
exceed that Credit Limit we set from time to time.
Without further notice and as allowed by applicable law, we may
place limits on or stop the ability of you or any Cardmember to
make Cash Advances and/or Balance Transfers on any Account.
10. Account Statements and Verification. We will send an
Account Statement to the Guarantor for Consolidated Pay
Accounts and/or to the Authorized Person for Individual Pay
Accounts, directed to the Cardmember’s address last provided
to us by the Authorized Person. Changes in a Cardmember’s
address must be received by us no later than five (5) days before
the date a billing cycle closes in order for us to provide the
Account Statement to the new address. You will ensure that
each Cardmember promptly examines all of the Cardmember’s
Account Statements and each entry and balance recorded
in them. If we deem your account uncollectable or institute
collection proceedings through an outside agency or attorney,
we may stop sending you Account Statements. Periodic finance
charges and fees may continue to accrue even if we stop sending
Account Statements.
11. Liability for Debt. Except as specifically provided to the
contrary in this Agreement, you will be liable to us for all Debt
charged to each Account and shall pay to us all Debt charged to

each Account, no matter how it is incurred, for what it is incurred
(e.g., a Purchase by a Cardmember which is not primarily for
or incidental to your business) or who has incurred it, and even
though we may send Account Statements to Cardmembers and
not to you.
However, we will provide Account Statements or other
information about that Debt to you at your request.
Each Cardmember shall be individually liable for the payment
of, and shall pay on our demand all Debt which may be owing
from time to time from or on account of any and all use by a
Cardmember, or anyone who has actual, implied or apparent
authority, of any Card or Account which is not authorized under
this Agreement (i.e., a use not primarily for or incidental to your
business). The liability of the Cardmember shall be in addition
to and not in lieu of your primary liability and the liability of any
Guarantors, which shall continue for any and all uses as provided
in this Agreement.
Any Guarantors shall be jointly and severally liable to us for all
Debt charged to each Account, no matter how it is incurred, for
what it is incurred (e.g., a Purchase by a Cardmember which
is not primarily for or incidental to your business) or who has
incurred it. The liability of any Guarantors shall be in addition to
and not in lieu of your primary liability, which shall continue for
any and all uses as provided in this Agreement.
12. Unauthorized Use of Card or Convenience Check –
Limitation of Liability. You must tell us or the Cardmember must
tell us at once if the Cardmember’s Card or a Convenience Check
is lost or stolen, if you suspect or the Cardmember suspects
the Card or a Convenience Check is lost or stolen, if there has
been an Unauthorized Use of the Cardmember’s Card or a
Convenience Check. You may do this or the Cardmember may do
this by telephoning us immediately at the Cardmember Services
number on the Account Statement. You will follow such notice
with a written confirmation if we request you to do so. We may
require you to provide certain information in writing to help us
find out what happened and to comply with our investigation.
You must identify for us the charges that were not made by you
or the Cardmember, or someone not authorized by you or the
Cardmember, and from which you received no benefit.
Except as provided below in this paragraph, you will not be liable
to us and a Cardmember will not be liable to us for any Debt
resulting from an Unauthorized Use of a Card or Convenience
Check, provided you tell us or the Cardmember tells us about
the Unauthorized Use of the Card or Convenience Check within
sixty (60) calendar days of the mailing date of the first Account
Statement showing the Unauthorized Use. If you do not tell us
or the Cardmember does not tell us about the Unauthorized Use
within such sixty (60) calendar day period, or if we reasonably
determine, based on substantial evidence, that you or the
Cardmember were grossly negligent (which may include delay
for an unreasonable time in reporting an Unauthorized Use) or
fraudulent in the handling of the Card or the Account, you will be
liable for the Unauthorized Use. Subject to the exceptions below
in this paragraph, your liability, however, for any Debt resulting
from an Unauthorized Use of a Card or Convenience Check

will be limited to the lesser of $50 or the amount of money,
property, labor, or services obtained by the Unauthorized Use
before notification to us of the Unauthorized Use, unless you
or the Cardmember are determined to have been fraudulent in
the handling of the Card or Account, or ten (10) or more Cards
are issued by us under this Agreement to Cardmembers at the
request of an Authorized Person. If we determine that you or the
Cardmember have been fraudulent in the handling of the Card
or the Account, or ten (10) or more Cards are issued by us under
this Agreement to Cardmembers at the request of an Authorized
Person, then your liability will be unlimited. Subject to any
limitations on liability under applicable law or any agreements
with us governing the use of PINs or ATMs, your liability will also
be unlimited if the Unauthorized Use involved an ATM or PIN
transaction that was not processed by MasterCard.
You will not be liable to us for any Debt resulting from an
Unauthorized Use that is incurred after the time you tell us or
the Cardmember tells us about the loss, theft or Unauthorized
Use of the Card or Convenience Check.
13. Payment of Debt.
(a) Subject to Sections 13(b), 13(c) and Section 19, you may pay
the Debt you owe to us in respect to each Cardmember’s
Account in full or in part at any time.
(b) Subject to Section 13(c) and Section 19, you must make
one of the following payments of the Debt shown on each
Account Statement by the Due Date shown thereon in order
to keep the Account up-to-date:
(i) a payment in full of the New Balance shown on the
current Account Statement if that New Balance is less
than $40.00; or
(ii) a payment of not less than the Minimum Payment shown
on the current Account Statement if the New Balance
shown on that Account Statement is $40.00 or more.
(c) You must also pay the amount of any Debt that exceeds the
Credit Limit for a Cardmember’s Account at once to keep that
Account up-to-date. You must pay this excess even though we
may not have yet sent an Account Statement to the Cardmember
on which that excess appears.
(d) You must keep each Cardmember’s Account up-to-date
at all times even when we are delayed in or prevented from
sending, for any reason, any one or more Account Statements
to Cardmembers. You must contact us by telephone using the
Cardmember Services number on the Account Statement at least
once a month during such a delay or interruption to obtain any
payment information you do not have and need to know in order
for you to comply with your obligations under this Section.
(e) If any payment made by you in respect of a Cardmember’s
Account is not honored, or if we must return it to you because
it cannot be processed, the applicable fee will be charged under
Section 15 and Card privileges may be revoked or suspended by
us under Section 18.

14. Application of Payments. We may allocate payments on the
Debt in the manner we, in our sole discretion, deem appropriate,
unless applicable laws mandate a specific order for application
of payments. Unless we otherwise agree, any payment must be
made in U.S. dollars.
15. ANNUAL PERCENTAGE RATE, FINANCE CHARGES and
Other Fees.
(a) FINANCE CHARGES reflect the cost of credit to you. Your
FINANCE CHARGES for any billing cycle will equal the total of
(i) the amount of FINANCE CHARGES constituting “interest”
and (ii) the amount of transaction fees and other fees or
charges that are considered FINANCE CHARGES.
(b) The “interest” portion of the FINANCE CHARGES is
computed through use of monthly periodic rates (monthly
“Periodic Rate” or monthly “Periodic Rates”) and their
corresponding ANNUAL PERCENTAGE RATES. Each monthly
Periodic Rate for transactions posting as Purchases, Cash
Advances or Balance Transfers will be equal to 1/12th of its
corresponding ANNUAL PERCENTAGE RATE. Subject to the
provisions of Section 15(f), the monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE for transactions
posting as Purchases is a variable rate that may change from
time to time based on changes to an Index identified below.
(c) The monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE for transactions posting as Purchases
may increase or decrease from time to time according to
the movements up or down of the following index (“Index”):
the “Prime Rate,” as published in The Wall Street Journal
up to three business days prior to the Account Statement
closing date for that period. If The Wall Street Journal does
not publish the Prime Rate, we may substitute a similar
published rate. Any variable rate adjustment based on an
Index change will be effective as of the beginning date
of the Billing Cycle for which we calculate the ANNUAL
PERCENTAGE RATE. We apply the new applicable rate to all
existing Debt, including New Balances, outstanding balances
and other transactions, subject to that variable rate. Any
increase in the Index may result in an increase in the
FINANCE CHARGES, Minimum Payment, New Balances and
the Debt.
(d) Subject to the provisions of Section 15(f), the interest rate
for transactions posting as Purchases will be determined by
adding to the Prime Rate a margin as shown on the welcome
letter, resulting in a daily Periodic Rate and a corresponding
ANNUAL PERCENTAGE RATE also as shown on the welcome
letter and statement. Subject to the provisions of Section
15(f), the ANNUAL PERCENTAGE RATE for transactions
posting as Cash Advances may vary monthly. We will assess
a transaction fee for ATM and bank Cash Advances and for
use of Convenience Checks and other credit instruments or
devices intended for use in obtaining Cash Advances. For
each Cash Advance, we will add a FINANCE CHARGE equal to
4% of the Cash Advance amount, but not less than $10.00.
(e) Subject to the provisions of Section 15(f), the ANNUAL
PERCENTAGE RATE for transactions posting as Balance
Transfers may vary monthly and will be the same as the
ANNUAL PERCENTAGE RATE and corresponding monthly
Periodic Rate used for Cash Advances.

(f) Upon the occurrence of an “Adjustment Event,” each
monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE in effect for all Debt, including New
Balances, outstanding balances, and other transactions,
will increase from their standard, non-delinquency rates
or any introductory or promotional rates as set forth or
referenced in this Section 15 to a “Delinquency Rate.” The
Delinquency Rate will take effect and apply to all Debt,
including New Balances, outstanding balances and other
transactions, as of the first day of the billing cycle in which
the Adjustment Event occurs. An Adjustment Event occurs
whenever a Minimum Payment is thirty (30) days past due.
An “Adjustment Event” for introductory or promotional rates
occurs on the first date of delinquency. Any introductory
or promotional rate will expire upon an Adjustment
Event and will be changed to the Delinquency Rate. The
Delinquency Rate may vary monthly. The Delinquency Rate
for all Debt will remain in effect until the closing date of the
sixth consecutive billing cycle that you are “current” on all
payments (that is, no Minimum Payments past due). On the
first day of the billing cycle following your sixth consecutive
current cycle, the daily Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE for all Debt will decrease
to their standard, non-delinquency rates, but not any
introductory or promotional rates.
(g) We calculate the periodic rate or “interest” portion of the
FINANCE CHARGE by multiplying the applicable monthly
Periodic Rate by the average daily balance (including new
transactions) of the Purchase, Cash Advance, and Balance
Transfer categories subject to the “interest” portion of the
FINANCE CHARGE (“Amounts Subject to Interest”), and then
add together the resulting “interest” from each category.
We determine the average daily balance separately for the
Purchase, Cash Advance and Balance Transfer categories.
To get the average daily balance in each category, we add
together the daily balances in those categories for the billing
cycle and divide the result by the number of days in the billing
cycle. We determine the daily balances each day by taking
the beginning balance of each of those Account categories
(including any billed but unpaid interest, fees and other
charges), add any new interest, fees and other charges, and
subtract any payments or credits applied against the Account
balances that day. We add Purchases, Cash Advances, and
Balance Transfers to the appropriate balances for those
categories on the applicable transaction dates. Billed but
unpaid interest on Purchases, Cash Advances and Balance
Transfers is added to the appropriate balances for those
categories each month on the statement date. Billed but
unpaid Cash Advance transaction fees are added to the Cash
Advance balance of an Account on the transaction date. Any
billed but unpaid fees on Purchases and other charges are
added to the Purchase balance of an Account on the date
they are charged to the Account. Billed and unpaid interest,
fees and other charges will be included in the average daily
balance of all Accounts that accrue interest (the “Amount
Subject to Interest”) and will reduce the amount of credit
available. If the average daily balance of any category of
Purchase, Cash Advance or Balance Transfer is at least $0.01
in any billing cycle, an Account will be subject to a minimum
FINANCE CHARGE of $0.50 in that cycle.

(h) You will not pay interest on the amount of any Purchase
appearing on an Account Statement for the first time if all
Debt shown on that Account Statement is paid in full by
that Account Statement’s Due Date, and all Debt shown
on the preceding Account Statement was also paid in full
by that preceding Account Statement’s Due Date. There is
no grace period for transactions that post to an Account as
Cash Advances or Balance Transfers. Those transactions are
subject to interest from the date they are made until the
date they are paid in full.
(i) We may, at our option, offer you limited time introductory
or promotional interest rates for all or part of the Purchase,
Cash Advance, or Balance Transfer balances in an Account.
We will tell you the introductory or promotional rate and the
period of time during which it is in effect in the offer. Unless
an offer states otherwise, an introductory or promotional
rate will generally remain in effect until the last day of the
billing cycle in which the introductory or promotional rate
expires, the date an Account is closed to future transactions,
or the date an Account becomes past due because a
Minimum Payment is not received in full on or before
its Due Date, whichever occurs sooner. Any introductory
or promotional rate that applies to New Balances or
outstanding balances will increase to the standard rate that
would otherwise apply, or when appropriate under the
terms of this Agreement, a Delinquency Rate will be applied
if we do not receive at least the Minimum Payment due by
the Due Date shown on an Account statement in any month.
(j) In addition to the “interest” portion of the FINANCE
CHARGES, for each Account you agree to pay the following
FINANCE CHARGES, as well as the other fees and charges
listed below:
(i) A FINANCE CHARGE in the form of a Promotional
Transaction Fee for each Promotion received during a
billing cycle – the fee will be in the amount set forth in
any Promotional Discount offer extended by us and will be
charged to the Purchase, Cash Advance, or Balance Transfer
balance of each Account as set forth in the Promotional
Discount offer;
(ii)
A Late Payment Fee in the amount of $20.00 – the fee
will be charged to the Purchase balance of an Account
if the Minimum Payment for that Account is not
received by us by the end of business 5 days after the
Due Date shown on the Account Statement;
(iii) An Over-limit fee of $20.00 – the fee will be charged
to the Purchase balance of an Account if the
outstanding Debt on the Account exceeds the Credit
Limit established for the Account at any time during
the Account’s billing cycle;
(iv) An Annual Fee of $39.00 – the fee will be charged
to the Purchase balance of an Account on the first
anniversary of the account opening and every year
thereafter;
(v)
A Returned Payment Fee of $20.00 – the fee will be
charged to the Purchase balance of an Account if any
payment is not honored or if we must return it to you
because it cannot be processed;
(vi) A Returned Convenience Check Fee of $20.00 –
the fee will be charged to the Purchase balance of
an Account or the Cash Advance balance of an

Account depending on how the Convenience Check is
being posted;
(vii) A Convenience Check Stop-Payment fee of $20.00 –
the fee will be charged to the Purchase balance of an
Account or the Cash Advance balance depending on
how the Convenience Check is being posted; and
(viii) A Convenience Check copy fee of $20.00 – the fee will
be charged to the Purchase balance of an Account for
each copy of a returned convenience check;
(ix) A Document copy fee of $15.00 – the fee will be
charged to the Purchase balance of an Account
for each copy of a monthly statement, sales slip,
refund slip, or Cash Advance slip that you request
(there will be no charge for documentation requests
made in connection with a billing error notice, if our
investigation indicates a billing error occurred);
(x)
Research fee of $15.00 / hour – the fee will be
charged to the Purchase balance of an Account for
time we spend to research an item regarding your
account at your request (there will be no charge for
documentation requests made in connection with
a billing error notice, if our investigation indicates a
billing error occurred);
(xi) A Rush PIN fee of $10.00 – the fee will be charged
to the Purchase balance of an Account if you or a
Cardmember request a PIN rush-delivered via Fed Ex;
(xii) A Credit Card Replacement fee – we may add a fee
to the Purchase balance of an Account if you or a
Cardmember request a replacement card. This fee
is based on the delivery type requested. If you or a
Cardmember request a replacement via standard
mailing the fee is $5.00. If you or a Cardmember
request a replacement which is shipped 2 business
days after the request is received the fee is $25.00.
If you or a Cardmember request a non-emergency
delivery shipped via Fed Ex 1 day after the request is
received the fee is $65.00. If you or a Cardmember
request an emergency card replacement which is
shipped at the time the request is received the fee
is $105.00;
(xiii) A photo card fee of $5.00 – the fee for each
customized image a Cardmember requests be printed
on their card.
16. Security Interest. Under this Agreement, no security interest
is retained in your property to secure the Debt; provided,
however, if we are permitted by law to retain a security interest
in your property to secure the Debt and a security interest is
retained or may in the future be retained by us in a separate
security agreement or other agreement which references
this Agreement or your obligations to us in general, then that
security interest shall secure the Debt. To the extent any one or
more Persons are identified in our records as being a Guarantor,
or to the extent we consider one or more Persons as being a
Guarantor, then, in such event, this Agreement and the Debt is
secured by the unconditional, joint and several guaranty of each
Guarantor as set forth in this Agreement.
17. Changes in Interest Rates, Fees, and Charges to this
Agreement. We may change the interest rates, transaction fees,

late fees, and other fees or charges for each Cardmember’s
Account and this Agreement periodically. We may also change
other terms and conditions of this Agreement periodically. You
will be given at least thirty (30) days’ prior written notice of each
change, directed to your address last appearing on our records.
If we have not received written notice of your desire to opt out
of the change prior to the effective date of the change, it will
mean that you have agreed to the change. If you opt out of the
change prior to the change becoming effective, all Accounts will
be closed and you will have the right to continue to pay the Debt
in the same manner and under the same terms and conditions as
then in effect under this Agreement.
18. Card Cancellation/Revocation or Suspension of Use.
You may cancel a Cardmember’s Account and Card for
any reason (including, without limitation, the death of the
Cardmember) by providing us with written notice of cancellation
of that Account and Card. Subject to Section 12, you will be
liable to us for all Debt, howsoever and by whosoever incurred.
If the Debt outstanding in a Cardmember’s Account exceeds
the Credit Limit at any time, we may suspend, without notice,
the Cardmember’s right to use the Cardmember’s Account and
Card and all services we provide to the Cardmember under this
Agreement until such time as that excess is paid to us in full.
We may cancel and revoke a Cardmember’s right to use the
Cardmember’s Account and Card at any time without notice. The
Cardmember must also promptly surrender the Cardmember’s
Card to us at our request or at your request.
19. Termination.
(a) You or we may terminate this Agreement at any time by
giving written notice of termination to the other. We must
direct our written notice to your address last appearing on
our records. Your written notice must be directed to us at
our address, P.O. Box 14542, Des Moines, IA 50306-3542.
(b) The occurrence of any one of the following events has the
effect of putting you in default and we may terminate this
Agreement at once without giving you any notice, if:
(i)
you become insolvent or bankrupt;
(ii)
someone files a petition in bankruptcy against you;
(iii) you make an unauthorized assignment for the benefit
of your creditors;
(iv) you institute, or someone else institutes, any
proceedings for the dissolution, liquidation or
winding-up of your affairs;
(v)
you institute, or someone else institutes, any other
type of insolvency proceeding involving your assets
under the U.S. Bankruptcy Code or otherwise;
(vi) you cease or give notice of your intention to cease
to carry on business or make or agree to make a bulk
sale of your assets without complying with applicable
laws, or you commit an act of bankruptcy;
(vii) you fail to pay any Debt or to perform any other
obligation to us as required under this Agreement;
(viii) you make any statement or representation to us that
is untrue in any material respect when made;
(ix) there is, in our opinion, a material adverse change in
your financial condition; or
(x)
any Guarantor terminates such Guarantor’s guaranty
of the Debt.

(c) Upon termination of this Agreement under this Section
19, you must pay all Debt for each Account to us at once,
without our having to make demand on you for payment,
and you must ensure that each Cardmember destroys the
Cardmember’s Card. If you gave the financial institution
guaranteeing your Account a security interest or other
deposit, we may use the deposit amount to pay any amount
you owe.
(d) On termination of this Agreement under this Section 19,
interest shall continue to accrue on all Debt and it will
accrue at the ANNUAL PERCENTAGE RATE described in
Section 15 as the “Delinquency Rate” until the Debt is
paid in full. Also, termination of this Agreement under this
Section 19 shall not terminate:
(i)
your obligations to us on all transactions and other
matters under this Agreement that occur prior to the
date of such termination;
(ii)
all interest and all fees and other charges as shall have
accrued or as shall continue to occur or accrue to us
with respect to such transactions;
(iii) the indemnity provided by you in Section 23 of this
Agreement, the arbitration provisions in Section 24,
the waiver of jury trial provision of Section 25 and any
other provisions intended by their terms to survive
termination.
(e) In addition to your other liabilities to us under this
Agreement, if you fail to comply with your obligations to
us under this Agreement, you will be liable to us for: (i) all
court costs and reasonable attorneys’ fees and expenses we
incur through any legal process to recover any Debt, and (ii)
all costs and expenses we incur in reclaiming any Card.
20. Problems with a Purchase. Subject to Section 33:
(a) we are not responsible for any problem a Cardmember has
with any Purchase; and
(b) if the Cardmember has a problem or dispute with a
merchant regarding a Purchase, you must still pay all Debt
as required by this Agreement and settle the problem or
dispute directly with the merchant.
We will not be responsible if a Card is not honored by a
merchant at any time and, subject to Section 33, for any other
problem or dispute a Cardmember may have with a merchant.
As well, we reserve the right to deny authorization of any
Purchase, Balance Transfer, or Cash Advance at any time.
21. Settling a Disputed Balance - Payment in Full. If you want
to settle a disagreement with us about any amount you owe by
sending a check on which you have written “Payment in Full”
or similar language, you must send us a written explanation of
the disagreement or dispute and any such check to P.O. Box
14542, Des Moines, IA 50306-3542. (See “Your Billing Rights” in
Section 33 for complete details.) This address is different than
the address you use to make scheduled payments on the Debt.
Writing “Payment in Full” or similar language on the check will
not be enough to resolve the dispute. If we collect a check or any
payment instrument marked “Paid in Full” that you sent to an
address other than the one provided in this Section (such as the
address at which you normally make payments), we will not have

waived our right to collect any remaining amount you owe us
under the terms of this Agreement.
22. Disclaimers of Warranties and Liabilities. You specifically
disclaim as to us, MasterCard U.S.A., Inc., and MasterCard
International all warranties of any kind, express or implied,
arising out of or related to the Card or any core service or
supplemental services provided in connection therewith,
including, but not limited to, any warranty of MERCHANTABILITY,
FITNESS FOR A PARTICULAR PURPOSE or NONINFRINGEMENT,
each of which is expressly waived.
23. Indemnification. You shall indemnify and hold harmless
us and our affiliates, as well as our and their respective
shareholders, directors, officers, members, managers,
employees, and agents, from and against any and all losses,
claims, damages, liabilities, judgments, or amounts paid in
settlement (or actions, suits, or proceedings, or investigations
in respect thereof), including reasonable attorneys’ fees
(collectively, “Losses”) resulting from, relating to or arising
out of this Agreement except to the extent such Losses solely
result from, arise out of or relate to the gross negligence or
willful misconduct of us, our affiliates, or our or their respective
shareholders, directors, officers, members, managers,
employees, or agents.
24. Arbitration. All irresolvable disputes or claims concerning
this Agreement (excluding termination of this Agreement by
us as provided in this Agreement) will be decided by binding
arbitration under the expedited procedures of the Commercial
Financial Disputes Arbitration Rules of the American Arbitration
Association (“AAA”) and Title 9 of the U.S. Code. Arbitration
hearings will be held in Des Moines, Iowa, or such other location
as mutually agreed upon. A single arbitrator will be appointed
by the AAA and will be a judge or attorney with experience or
knowledge in banking transactions. The arbitrator will award
the filing and arbitrator fees to the prevailing party. A judgment
on the award of the arbitrator may be entered by a court. All
disputes or claims regarding any matter which is the subject of
this Agreement shall be brought within one year from the date
of the accrual of the cause of action. You agree that we shall be
entitled to temporary or permanent injunctive relief from any
court of competent jurisdiction to enforce the provisions of and
to restrain or prevent any breach, default or further violation by
you under this Agreement, without being required to post any
bond or other security whatsoever. In the event of arbitration
or litigation regarding the term, performance or subject matter
of this Agreement, the substantially prevailing party shall be
entitled to recover its reasonable attorneys’ fees.
25. Waiver of Jury Trial. To the extent permitted by applicable
law, you expressly and irrevocably waive any and all rights you
may have to a trial by jury in any action, suit or proceeding
of any nature resulting from, arising out of or related to this
Agreement. You acknowledge that the foregoing waiver is
knowing and voluntary.
26. Exchange of Information Between You and Us.
(a) Information about a Cardmember’s use of the

Cardmember’s Account and Card, and pertinent information
about any reimbursement of Debt received by the
Cardmember from you, Cardmember employment status
and location, and any other related Cardmember tracking
information may be exchanged between you and us.
(b) You understand that by providing your mailing address,
e-mail address, telephone number or facsimile number
to us, you are consenting to receiving from us and other
members of TMG Financial Services, Inc. (defined in Section
27(e) below) communications sent by or on our behalf, or by
or on the behalf of any member of TMG Financial Services,
Inc., via regular mail, e-mail, telephone, facsimile or other
form of communication or delivery of a communication.
27. Account and Card Ownership, and Assignment. We are the
owner of each Account and Card. Neither a Cardmember nor
you have the right to assign or transfer this Agreement, any Card
or any Account to anyone else, and any transfer or attempted
transfer shall be null and void. We may assign this Agreement
to any affiliated Person or to any other Person who is a bank,
financial institution or other creditor. We may also assign or
delegate certain of our rights and responsibilities under this
Agreement to third party service providers, and such third party
service providers may do the same.
28. Notice. All notices under this Agreement shall be given in the
following manner: Unless otherwise specified in this Agreement,
all notices permitted or required by this Agreement shall be in
writing and shall be deemed to have been duly given if sent by
personal delivery, mail, telegram, or facsimile, addressed, in
the case of notice to us, to P.O. Box 14542, Des Moines, IA
50306-3542 and in the case of you, to your address as shown
on our records.
29. Complete Agreement, etc. This Agreement constitutes the
complete agreement between you and us with respect to the
subject matter hereof. No failure on our part to exercise, and
no delay by us in exercising, any right under this Agreement will
operate as a waiver thereof; nor will any single or partial exercise
by us of any right under this Agreement preclude any other or
further exercise thereof, or the exercise of any other right, by us
under this Agreement.
30. Equal Credit Opportunity Disclosure. The federal Equal
Credit Opportunity Act prohibits creditors from discriminating
against credit applicants on the basis of race, color, religion,
national origin, sex, marital status, age (provided that the
applicant has the legal capacity to enter into a binding contract),
because all or part of the applicant’s income derives from any
public assistance program, or because the applicant has in good
faith exercised any right under the Consumer Credit Protection
Act. If you believe you have been discriminated against, you
should send your complaint to: P.O. Box 14542, Des Moines, IA
50306-3542.
31. Credit Bureau Disputes. If you believe we inaccurately
reported credit history information about you or any of the
Accounts to a credit bureau, you may telephone us using the
Cardmember Services number on the Account Statement or
write us at P.O. Box 14542, Des Moines, IA 50306-3542. We will

promptly investigate the matter and if we agree with you, we will
contact each credit reporting agency to which we reported and
request a correction. If, after our investigation, we disagree with
you, we will inform you in writing or by telephone how to submit
a statement to those agencies for inclusion in your credit report.
32. Our Billing Rights.
THE FOLLOWING SETS FORTH YOUR BILLING RIGHTS AND YOU
WILL KEEP THIS NOTICE FOR FUTURE USE
In case of errors or questions about a transaction, you will notify
us in writing at P.O. Box 14542, Des Moines, IA 50306-3542. You
will write to us as soon as possible, but no later than sixty (60)
days after we sent the first Account Statement where the error
or problem appeared.
You will write to us on a separate sheet of paper and will not
send the notice on the Account Statement or other material that
accompanied the Account Statement. You also can telephone
us using the Cardmember Services number on the Account
Statement, but doing so will not preserve your legal rights
under this Section or applicable law. In your letter to us, you will
include the following information:
(i) your name and the Cardmember’s name and the number of
the Account on which there is an error or question;
(ii) the dollar amount of the suspected error;
(iii) the date the transaction occurred (if possible); and
(iv) a description of the error and an explanation in as clear
terms as possible of why you believe there is an error,
or if you need more information, you will describe the
information you need.
(v) your signature
If you have authorized us to pay your Account Statement
automatically from a deposit account, you can stop the payment
on any amount you believe is wrong. To stop the payment, your
letter must reach us three business days before the automatic
payment is scheduled to occur.
We must acknowledge your letter within thirty (30) days unless
we have corrected the error by then. Within 90 days we must
either correct the error or explain why we believe the statement
was correct. After we receive your letter, we cannot try to collect
any amount you questioned or report the Account as delinquent.
We can continue to bill you for the amount you questioned,
including Finance Charges, and we can apply any unpaid amount
against your Credit Limit. You do not have to pay any questioned
amount while we are investigating, but you are still obligated to
pay the parts of the Account that are not in question.
If we find that we made a mistake on your Account Statement,
you will not have to pay any Finance Charges related to the
questioned amount. If we did not make a mistake, you may have
to pay Finance Charges, and you will have to make up any missed
payments on the questioned amount. In either case, we will
send you a statement of the amount you owe and the date that
it is due. If you fail to pay the amount that we think you owe, we
may report you as delinquent. However, if our explanation does
not satisfy you and you write to us within ten (10) days telling
us that you still refuse to pay, we must tell anyone we report
you to that you have a question about your Account Statement.

And, we must tell you the name of anyone we reported you to.
We must tell anyone we report you to that the matter has been
settled between us when it finally is.
We may use a microfilm, electronic, or other reproduction of any
Purchase or Cash Advance draft or other document evidencing
Debt to establish your liability for the Debt. Upon request,
we will provide you with a microfilm, electronic, or other
reproduction within a reasonable time frame of any Purchase or
Cash Advance draft or other document evidencing the Debt.
Special Rules for Credit Card Purchases:
If you have a problem with the quality of property or services
that are purchased with a Card issued pursuant to this
Agreement and you have tried in good faith to correct the
problem with the merchant, under certain circumstances you
may have the right not to pay the remaining amount due on
the property or services. There are two limitations on this
right and both must apply: (i) the purchase must have been
made in the Cardmember’s home state or, if not within the
Cardmember’s home state, within one hundred (100) miles
of the Cardmember’s current mailing address, and (ii) the
purchase price must have been more than $50. The forgoing
two conditions do not apply if we own or operate the merchant
or if we mailed the advertisement for the property or services
to the Cardmember. This paragraph does not apply to the use
of a check guarantee card or a debit card in connection with
an overdraft credit plan, or to a check guarantee card used
in connection with cash advance checks. This paragraph only
applies to a transaction that would be considered a consumer
credit transaction under applicable law.
33. Guaranty Agreement. Each Guarantor, jointly and severally
(if more than one), unconditionally guarantees the payment,
when due, to us, or any holder, assignee or transferee of this
Agreement or any Account, of all Debt (no matter how it is
incurred, for what it is incurred or who has incurred it) from
time to time owing under this Agreement or any Account and
the payment upon demand of the entire amount of Debt owing
under this Agreement or any Account in the event of default in
payment by any Person or Persons obligated thereon.
Each Guarantor, to the extent not prohibited by law: (i) waives
notice of acceptance of this guaranty; (ii) waives notice of, or
any right of prior approval or consent with respect to, or any
defense or claim arising out of or relating to any extensions in
time of payment or other indulgences or concessions granted
or extended to any Person or Persons obligated under this
Agreement or any Account; and (iii) waives all other notices
and rights to which each Guarantor is otherwise entitled by
law or in equity; and each Guarantor agrees to pay all amounts
owing hereunder, upon demand, without requiring any action
or proceeding against any Person or Persons obligated under
this Agreement or any Account, or any of their property. This
guaranty is a present guaranty and it shall continue until
thirty (30) calendar days after the date of receipt by us of a
written termination of guaranty executed by any Guarantor
so terminating such Guarantor’s guaranty, such notice to be
given to us at P.O. Box 14542, Des Moines, IA 50306-3542.
If this guaranty is terminated by a Guarantor as provided in

the preceding sentence, such termination shall apply only
to credit extended by us after the end of said thirty (30) day
notice period and such termination shall not apply to any other
Debt. Termination of this guaranty by one Guarantor shall not
terminate the guaranty of any other Guarantor. If suit is brought
to enforce this guaranty agreement, each Guarantor agrees
to pay our reasonable attorneys’ fees, or those of any holder,
assignee or transferee of this Agreement. The consideration for
this guaranty agreement is our agreement to extend credit as
set forth in this Agreement and this guaranty agreement is being
given to enhance your credit, and has been offered by each
Guarantor to us and accepted by us for such purpose and to
further secure and ensure payment of all of the Debt owing from
time to time under this Agreement or any Account.
34. Application. This Agreement is incorporated in and has
been made a part of the application for credit you gave us at the
time you applied for the credit to be extended by us under or
pursuant to this Agreement.

